2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Van

(SOCKLE

Legal Briefs

E-Mail Address:

Est, 1923 contact@cocklelegalbriefs.com
Web Site
www.cocklelegalbriefs.com
No. 19-541
MICHAEL LAMBERT,
Petitioner,
v.
ESTATE OF KEVIN BROWN,

by its Successor in Interest Rebecca Brown, et al.,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF IN SUPPORT
OF PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 2679 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

he, Calle Qubawh, ble

Notary Public Affiant 39319
